No.

IN THE SUPREME COURT OF THE UNITED STATES
WILLIE E. ASHE, JR.
v-

UNITED STATES
ON PETITION FOR WRIT OF CERTIOR"{RI
TO THE DISTRICT OF COLUMBIA COURT OFAPPEALS

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPEBIS

Dana E. Hofferber, Esquire
Counsel of Record for Wille E. Ashe, Jr.

DELH
4201 Wilson Blvd. #110, Ste. 235
Arlington, V422203
delhcia@email.com
571-310-4081

Motion to proceed in forma pauperis
Undersigned counsel was appointed pursuant to D.C. Code

S

t 1-2601 et seq. to

represent indigent criminal defendant willie E. Ashe, Jr., in his appeal to the District
of Columbia Court of Appeals. In the underlying criminal matter, Ashe was granted
leave to proceed in fotma pauperrs before both the D.C. Superior Court and the D.C.

Court ofAppeals. A copy ofthe order appointing the undersigned as counsel before

the D.C. Court of Appeals is attached. Petitioner hereby requests permission to
proceed in this Court in forma pauperis.

Signed,

Dana E. Hofferber, Esquire
Counsel of Record for Willie E. Ashe, Jr.

DELH
4201 Wilson Blvd. #110
ste. 235
Arlington, Ya 22203
delhcj a@email.com
571-310-4081

Distrirt of €olumtr,r
@ourt of 9pptats

No. l8-CM-1I97

WILLIE E. ASHE, JR.,

UNITED STATES,

Appellant,

DViVI795.18

Appellee.

ORDER
On corrsideration (r'the ttotice of appcal, and it appealing that appellatlt has
bccrr lounrl cligiblc tbr court appointe'cl counsel, it is

ORDERED that I)ana Fkrflcfbu-r. Esquire, is hefcby appointecl to reprcscrtt
appcllant in this appcal. It is
F'UR:|HER ORDEIIED that trial counscl Kevin L'r'irtg. Escluirc. shall
transmit all documents pcftainin-s to tlris appeal, including trial exhibits ttt thc
net'ly appointccl counscl lbrthwith. It is

FURTHER ORDERED that counscl ti:rr appcllant slrall inrmediatcly take thc
neccssal'y steps to revien,thi-'tria1 court rccord arrd to eusllre that the transclipt(s)
ncccssary to thc appcal havc hcen orclcrccl and shall, wittrin 30 da1's li'om thc date
of this oruler'. corrrplete ancl iile rvith this court a sirlglc copy ol'the statenrent
rcgarding transcripts available lbr courplction ortlinc. Wherc transcript(s) rlecessary
lirr this appeal have been ordered nntl cor-rrpletecl lbr rlxr-appeal purposes.
appellant must ildvisc the Court Rcpolting antl Recording Dit'ision to lbirviird said
transcript(s) tbr inclusir.rn in thc record on appeal.

'.

i:

